Supreme Court, U.S.
FILED

SEP 10 2020

WAIVER

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-270
R.K. Kenzie Corp., et al.

Irma Rosas
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.

F There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

R. K. Kenzie Corporation d/b/a McDonald's

0 I am a member of the Bar of the Supreme Court of the United States.
[] I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date-

, Digitally signed by Brian Shame

Brian Sharpe

Date: 2020.09.10 08:31:17 -0500'

September 10, 2020

(Type or print) Name

Brian J. Sharpe
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

LaPointe Law, P.C.

Address

1200 Shermer road, Suite 425

City & State
Phone

Northbrook, IL

847-786-2505

Zip
Email

60062

bsharpe@lapointelaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Petitioner Irma Rosas (pro se); counsel for all Respondents

RECEIVED
SEP 16 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

